APPENDIX A
(Judgment and Opinion of the United States Court of Appeals for the
Fifth Circuit)

Case: 20-10231

Document: 00515556944

Page: 1

Date Filed: 09/09/2020

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

___________

FILED
September 9, 2020

No. 20-10231
Summary Calendar
___________

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Lacey Renee Baxter Moore, also known as Lacey Kittrell,
Defendant—Appellant.
____________________________
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-304-9
____________________________
Before Jones, Barksdale, and Stewart, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on
file.
IT IS ORDERED and ADJUDGED that the judgment of the
District Court is AFFIRMED.

APPENDIX B
(Judgment and Sentence of the United States District Court for the
Northern District of Texas)

Case 4:19-cr-00304-O Document 361 Filed 03/03/20

Page 1 of 4 PageID 1018

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
Fort Worth Division

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

v.

Case Number: 4:19-CR-00304-O(09)
U.S. Marshal’s No.: 59230-177
Shawn Smith, Assistant U.S. Attorney
William Reynolds Biggs, Attorney for the Defendant

LACEY RENEE BAXTER MOORE

On October 21, 2019 the defendant, LACEY RENEE BAXTER MOORE, entered a plea of guilty as to
Count One of the Information filed on October 17, 2019. Accordingly, the defendant is adjudged guilty of such
Count, which involves the following offense:
Title & Section
21 U.S.C. § 846

Nature of Offense

Conspiracy to Possess with Intent to Distribute a
Controlled Substance

Offense Ended
7/31/2019

Count
One

The defendant is sentenced as provided in pages 2 through 3 of this judgment. The sentence is imposed
pursuant to Title 18, United States Code § 3553(a), taking the guidelines issued by the United States Sentencing
Commission pursuant to Title 28, United States Code § 994(a)(1), as advisory only.
The defendant shall pay immediately a special assessment of $100.00 as to Count One of the Information
filed on October 17, 2019.
The defendant shall notify the United States Attorney for this district within thirty days of any change of
name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this
judgment are fully paid.
Sentence imposed March 2, 2020.

____________________________________________
REED O’CONNOR
U.S. DISTRICT JUDGE
Signed March 3, 2020.

20-10231.67

Case 4:19-cr-00304-O Document 361 Filed 03/03/20

Page 2 of 4 PageID 1019

Judgment in a Criminal Case
Defendant: LACEY RENEE BAXTER MOORE
Case Number: 4:19-CR-00304-O(9)

Page 2 of 4

IMPRISONMENT
The defendant, LACEY RENEE BAXTER MOORE, is hereby committed to the custody of the Federal
Bureau of Prisons (BOP) to be imprisoned for a term of ONE HUNDRED FORTY-FOUR (144) months as to
Count One of the Information filed on October 17, 2019. This sentence shall run concurrently with any sentence(s)
which may be imposed in the 7th Judicial Court, Richland County, Case No. DC-19-59, in Sidney, Montana.
The Court recommends to the BOP that the defendant be allowed to participate in the Residential Drug
Treatment Program, if eligible. The Court recommends to the BOP that the defendant be allowed to participate in
the Life Connections Program, if eligible. The Court makes a non-binding recommendation to the BOP
that Defendant, if appropriately classified, be allowed to serve her term of imprisonment as near as
geographically possible to FMC Carswell, Texas facility.
The defendant is remanded to the custody of the United States Marshal.
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be placed on supervised release for a term of
THREE (3) years as to Count One of the Information filed on October 17, 2019.
While on supervised release, in compliance with the standard conditions of supervision adopted by the
United States Sentencing Commission, the defendant shall:
( 1)
( 2)
( 3)
( 4)
( 5)
( 6)
( 7)
( 8)
( 9)
(10)
(11)

not leave the judicial district without the permission of the Court or probation officer;
report to the probation officer as directed by the Court or probation officer and submit a truthful
and complete written report within the first five (5) days of each month;
answer truthfully all inquiries by the probation officer and follow the instructions of the probation
officer;
support the defendant's dependents and meet other family responsibilities;
work regularly at a lawful occupation unless excused by the probation officer for schooling,
training, or other acceptable reasons;
notify the probation officer within seventy-two (72) hours of any change in residence or
employment;
refrain from excessive use of alcohol and not purchase, possess, use, distribute, or administer any
narcotic or other controlled substance, or any paraphernalia related to such substances, except as
prescribed by a physician;
not frequent places where controlled substances are illegally sold, used, distributed, or
administered;
not associate with any persons engaged in criminal activity and not associate with any person
convicted of a felony unless granted permission to do so by the probation officer;
permit a probation officer to visit the defendant at any time at home or elsewhere and permit
confiscation of any contraband observed in plain view by the probation officer;
notify the probation officer within seventy-two (72) hours of being arrested or questioned by a law
enforcement officer;

20-10231.68

Case 4:19-cr-00304-O Document 361 Filed 03/03/20

Page 3 of 4 PageID 1020

Judgment in a Criminal Case
Defendant: LACEY RENEE BAXTER MOORE
Case Number: 4:19-CR-00304-O(9)

(12)
(13)

Page 3 of 4

not enter into any agreement to act as an informer or a special agent of a law enforcement agency
without the permission of the Court; and,
notify third parties of risks that may be occasioned by the defendant's criminal record or personal
history or characteristics, and permit the probation officer to make such notifications and to
confirm the defendant's compliance with such notification requirement, as directed by the
probation officer.
In addition the defendant shall:
not commit another federal, state, or local crime;
not possess illegal controlled substances;
not possess a firearm, destructive device, or other dangerous weapon;
cooperate in the collection of DNA as directed by the U.S. probation officer;
report in person to the U.S. Probation Office in the district to which the defendant is released from the
custody of the Federal Bureau of Prisons within 72 hours of release;
participate in mental health treatment services as directed by the probation officer until successfully
discharged, which services may include prescribed medications by a licensed physician, with the
defendant contributing to the costs of services rendered (copayment) at a rate of at least $30 per month;
refrain from any unlawful use of a controlled substance, submitting to one drug test within 15 days of
placement on probation or release from imprisonment and at least two periodic drug tests thereafter, as
directed by the probation officer pursuant to the mandatory drug testing provision of the 1994 crime bill;
and,
participate in a program approved by the probation officer for treatment of narcotic or drug or alcohol
dependency that will include testing for the detection of substance use, abstaining from the use of alcohol
and all other intoxicants during and after completion of treatment, contributing to the costs of services
rendered (copayment) at the rate of at least $30 per month.
FINE/RESTITUTION
The Court does not order a fine or costs of incarceration because the defendant does not have the financial
resources or future earning capacity to pay a fine or costs of incarceration.
Restitution is not ordered because there is no victim other than society at large.

20-10231.69

Case 4:19-cr-00304-O Document 361 Filed 03/03/20

Page 4 of 4 PageID 1021
Page 4 of 4

Judgment in a Criminal Case
Defendant: LACEY RENEE BAXTER MOORE
Case Number: 4:19-CR-00304-O(9)

RETURN
I have executed this judgment as follows:

Defendant delivered on _____________________ to ___________________________________
at ________________________________________________, with a certified copy of this judgment.
United States Marshal
BY
Deputy Marshal

20-10231.70

